TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                      September 14, 2009

                              Reference Number: 2009-20-136




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 14, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Business Systems
                               Modernization Program (Audit # 200920021)

 This report presents the results of our annual assessment of the Business Systems Modernization
 (Modernization) Program. The overall objective of this review was to assess the progress of the
 Internal Revenue Service (IRS) Modernization Program for Fiscal Year 2009, as required by the
 IRS Restructuring and Reform Act of 1998.1 This review was included in the Treasury Inspector
 General for Tax Administration Fiscal Year 2009 Annual Audit Plan under the major
 management challenge of Modernization of the IRS.

 Impact on the Taxpayer
 The Modernization Program, which began in 1999, is a complex effort to modernize the IRS’
 technology and related business processes. This effort will involve integrating thousands of
 hardware and software components. All of this must be done while replacing outdated
 technology and maintaining the current tax system. The objective of the Modernization Program
 is to address these crucial challenges, manage the inherent risks of modernization, and deliver a
 level of service American taxpayers expect.

 Synopsis
 In December 1998, the IRS hired the Computer Sciences Corporation as its PRIME contractor2
 for the Modernization Program. The IRS originally relied on the PRIME contractor to act as a

 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   See Appendix X for a glossary of terms.
                                            Annual Assessment of the
                                     Business Systems Modernization Program



systems integrator to find and manage the best expertise and technical resources to achieve its
organizational goals. In January 2005, due to budget reductions and concerns about the
adequacy of the PRIME contractor’s performance, the IRS began transitioning many activities
from the PRIME contractor and taking over the primary role as the systems integrator for all
projects.
The IRS originally estimated the Modernization Program effort would last up to 15 years and
incur contractor costs of about $8 billion. The Program is in its 11th year and has received
approximately $2.71 billion for contractor services, plus an
additional $353 million for internal IRS costs.
                                                                The IRS has spent 11 years
The Modernization Program accomplishments extend from            and received more than
the development of Program Management Offices and                     $3 billion on the
enterprise architecture to the implementation of systems and     Modernization Program.
applications that improve the IRS’ ability to administer and
enforce compliance with the nation’s tax laws, while
providing quality customer service.
For the past year, Modernization Program management development activities have generally
met the objectives of the IRS Modernization Program. These activities included the
development and implementation of strategic planning and program management efforts in the
form of the Information Technology Modernization Vision and Strategy, Enterprise Data Access
and Data Strategy Implementation Programs, and a tiered program management structure
designed to act as an enterprise governance model.
The Modernization Program has also continued to develop and deploy modernized applications.
New capabilities include enhancements to the Customer Account Data Engine that incorporated
new tax law provisions including the processing of Economic Stimulus Act of 20083 payments,
and the ability of IRS employees to access taxpayer account information through the Account
Management Services system.
The IRS has recognized that, in addition to the accomplishments achieved in the Modernization
Program, it faces significant challenges in meeting the requirements of the next phase of project
development and systems integration. The immediate challenge is the future of the Customer
Account Data Engine, the acknowledged centerpiece throughout the life of the Modernization
Program. The IRS Program Integration Office is considering using elements from the Individual
Master File and the current Customer Account Data Engine to significantly reengineer the IRS
tax account management process. The continued improvement to managing individual taxpayer
accounts will be curtailed until the use of the reengineered database is implemented and made
available for integration with other systems and applications. Further, the challenge in
modernizing the management of business taxpayer accounts has yet to be considered.

3
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                  2
                                     Annual Assessment of the
                              Business Systems Modernization Program



The past year’s Modernization Program performance did not continue the trend of improvement
it demonstrated in the prior 3 years. The shortfall in performance is presented in a
Modernization Program analysis of project development cost and schedule variance (see
Appendix VI). The IRS has also experienced a turnover of executives that challenges the
Program’s continued long-term success.
Further, a control process to manage the Modernization and Information Technology Services
(MITS) organization’s Highest Priority Initiatives process has been discontinued. The MITS
organization established the Customer Relationship and Service Delivery organization to support
the overall technology performance of the IRS and MITS organization. The Customer
Relationship and Service Delivery organization is currently developing processes that will be
used to replace the Highest Priority Initiatives process and plans to submit the draft process to
the Chief Technology Officer for review. The MITS organization is currently focusing on
process improvements throughout the organization using industry best practices. The MITS
Leadership team determined that this will provide a more comprehensive, integrated, disciplined,
and effective management approach for process improvements than the previous Highest
Priority Initiatives process.
Since 1995, the IRS has identified and reported the Modernization Program as a material
weakness. The IRS recognizes the need to incorporate necessary program management
disciplines and has plans to implement a process improvement strategy. This strategy will allow
the Modernization Program to continue to improve its management practices by incorporating
industry best practices. However, we believe the Modernization Program should continue as a
material weakness until the modernization material weakness action plan is updated and the
improvement strategy is accomplished.

Response
The Chief Technology Officer responded that the IRS was pleased that the annual assessment
recognized the MITS organization’s accomplishments in providing quality customer service.
The IRS also appreciated acknowledgement of the continued development and deployment of
modernized applications. In response to our comments on the use of the Information
Technology Modernization Vision and Strategy planning process, the IRS related that it
expanded the breadth of the business technology included in this strategy and is establishing a
pre-selection process for investment planning. Management’s complete response to the draft
report is included as Appendix XI.
Copies of this report are also being sent to the IRS managers affected by the report conclusions.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at
(202) 622-5894.


                                                                                                    3
                                               Annual Assessment of the
                                        Business Systems Modernization Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernization Program Has Delivered Business Value .......................Page 3
          The Modernization Program Has Continued to Further Its
          Program Management and Project Development Activities.........................Page 4
          The Modernization Program Is Being Refocused.........................................Page 6
          Further Improvements Can Be Made to Management of the
          Modernization Program ................................................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 19
          Appendix V – Modernization Program Funding ..........................................Page 21
          Appendix VI – Project Cost and Schedule Variance Analysis .....................Page 26
          Appendix VII – Modernization Program Project Accomplishments............Page 27
          Appendix VIII – Open Recommendations Related to Modernization
          Program Material Weaknesses......................................................................Page 29
          Appendix IX – Recent Treasury Inspector General for Tax
          Administration Reports on the Internal Revenue Service’s
          Modernization Program ................................................................................Page 32
          Appendix X – Glossary of Terms .................................................................Page 46
          Appendix XI – Management’s Response to the Draft Report ......................Page 50
                Annual Assessment of the
         Business Systems Modernization Program




                Abbreviations

e-File   Electronic Filing
IRS      Internal Revenue Service
MITS     Modernization and Information Technology Services
TIGTA    Treasury Inspector General for Tax Administration
                                          Annual Assessment of the
                                   Business Systems Modernization Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of IRS information technology. This report provides our assessment of the IRS
Business Systems Modernization (Modernization) Program from June 2008 through June 2009.
The Modernization Program, which began in 1999, is a complex effort to modernize the IRS’
technology and related business processes. This effort involves integrating thousands of
hardware and software components. All of this is being done while replacing outdated
technology and maintaining the current tax system. While the Modernization Program
encompasses dozens of projects and systems, the core projects that the IRS has referred to as the
“Pillars of Modernization” are the:
    •    Customer Account Data Engine2 – intended to replace the Master File system as the
         official repository of tax account information.
    •    Modernized e-File – intended to replace the existing electronic filing (e-File) platform
         used for electronic filing of tax returns for both business and individual taxpayers.
    •    Account Management Services – intended to replace the existing Integrated Data
         Retrieval System that provides IRS employees with the ability to view, access, update,
         and manage taxpayer accounts.
    •    Data Strategy – a comprehensive strategy for the collection, consolidation, storage, and
         distribution of data.
In December 1998, the IRS hired the Computer Sciences Corporation as its PRIME contractor
for the Modernization Program. The IRS originally relied on the PRIME contractor to act as a
systems integrator to find and manage the best expertise and technical resources to achieve its
organizational goals. In January 2005, due to budget reductions and concerns about the
adequacy of the PRIME contractor’s performance, the IRS
began transitioning many activities from the PRIME contractor
and taking over the primary role as the systems integrator for all       The IRS planned to
                                                                           complete the
projects.                                                           Modernization Program in
The IRS originally estimated the Modernization Program effort                        15 years at a cost of
                                                                                   approximately $8 billion.
would last up to 15 years and incur contractor costs of

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix X for a glossary of terms.
                                                                                                              Page 1
                                           Annual Assessment of the
                                    Business Systems Modernization Program



approximately $8 billion. The Program is now in its 11th year and has received approximately
$2.71 billion for contractor services, plus an additional $353 million for internal IRS costs.
Appendix V presents an analysis of Modernization Program funding since its inception.
The compilation of information for this report was conducted at the TIGTA office in
Laguna Niguel, California, during the period March through June 2009. The information
presented in this report is derived from TIGTA audit reports issued since July 2008,3 and the
Government Accountability Office report on the Modernization Program’s Fiscal Year 2009
Expenditure Plan.4 These previous audits and our limited analyses were conducted in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




3
    Appendix IX presents the TIGTA reports used in formulating this Modernization Program assessment.
4
    Internal Revenue Service’s Fiscal Year 2009 Expenditure Plan (GAO-09-281, dated March 2009).
                                                                                                        Page 2
                                        Annual Assessment of the
                                 Business Systems Modernization Program




                                    Results of Review

The Modernization Program Has Delivered Business Value
The Modernization Program accomplishments extend
from the development of an enterprise architecture and
                                                                  The Modernization
program management operations, to the implementation of Program accomplishments
systems and applications that improve the IRS’ ability to           encompass the
administer and enforce compliance with the nation’s tax        development of program
laws, while providing quality customer service. The IRS        management offices and
                                                                    operations and
has established offices and staffs to manage
                                                               modernized systems and
Modernization Program disciplines including the                      applications.
Enterprise Life Cycle,5 program governance, systems
engineering, configuration management, requirements
development and management, system and application
testing, and transition management. The Modernization Program is continuing to complete its
organizational makeup and is maturing in the role as the primary systems integrator.
The Modernization Program has also continued to develop and deploy modernized applications.
New capabilities include improvements to the Customer Account Data Engine that incorporated
new tax law provisions including the processing of Economic Stimulus Act of 20086 payments,
and the ability of IRS employees to access taxpayer account information through the Account
Management Services system.
Customer Account Data Engine
Our post-implementation review7 of the Customer Account Data Engine showed that Customer
Account Data Engine Release 3 accurately processes and records tax return and tax account
information. The Customer Account Data Engine project team successfully implemented
Release 3 requirements that enable the system to more successfully accept, record, and process
tax return information.
The Customer Account Data Engine processed more than 39.4 million individual income tax
returns (approximately 30 percent of all individual tax returns filed) and issued more than
$58 billion in refunds during the Calendar Year 2009 tax return filing season. This is a


5
  See Appendix IV for an overview of the Enterprise Life Cycle.
6
  Pub. L. No. 110-185, 122 Stat. 613.
7
  Customer Account Data Engine Release 3 Successfully Processes Individual Tax Return and Tax Account
Information (Reference Number 2009-20-001, dated October 24, 2008).
                                                                                                        Page 3
                                     Annual Assessment of the
                              Business Systems Modernization Program



significant increase over the 30 million tax returns (approximately 21 percent of all individual
tax returns filed) processed by the Customer Account Data Engine in Calendar Year 2008, and
the 11.2 million tax returns processed in Calendar Year 2007.
Account Management Services
The Account Management Services system provides IRS employees with the tools to access
information quickly and accurately in response to complex customer inquiries. The Account
Management Services project management team generally followed established systems
development processes. In the development and deployment of Account Management Services
Releases 1.3 and 2.1, the Modernization and Information Technology Services (MITS)
organization developed and maintained documentation to meet Enterprise Life Cycle
requirements for deliverables and work products. It also incorporated the use of project work
breakdown structure schedules, task orders and modifications, and meeting minutes.
Modernized e-File
The Modernized e-File system accepted 3.5 million electronically filed business tax returns for
the 2008 tax year, which far exceeded the filings for the previous tax year. All business forms
are now accepted on the Modernized e-File system, such as corporations, partnerships, exempt
organizations, excise tax returns, and applications for an automatic extension of time to file
certain business returns. The increase for Tax Year 2008 is 139 percent more than Tax
Year 2007 and represents about 28 percent of the total business return receipts for Tax
Year 2008.
Other systems
Additional products delivered by the Modernization Program include the e-Services application
that creates a web portal to promote the goal of conducting most of the IRS’ transactions with tax
practitioners electronically, and the Integrated Financial System that operates as the IRS’
accounting system of record, replacing the core financial systems, including expenditure
controls, accounts payable, accounts receivable, general ledger, budget formulation, and
purchasing controls.
Appendix VII presents the Modernization Program project accomplishments during the past
year.

The Modernization Program Has Continued to Further Its Program
Management and Project Development Activities
For the past year, Modernization Program management development activities have generally
met the objectives of the IRS Modernization Program. The Program included the development
and implementation of strategic planning and program management efforts in the form of the
Information Technology Modernization Vision and Strategy, Enterprise Data Access and Data

                                                                                            Page 4
                                     Annual Assessment of the
                              Business Systems Modernization Program



Strategy Implementation Programs, and a tiered program management structure designed to act
as an enterprise governance model.
Information Technology Modernization Vision and Strategy
The MITS organization has revised the Information Technology Modernization Vision and
Strategy to expand the scope of modernization to include business and technology functions that
were not previously included. This process reflects collaboration between the business functions
and the MITS organization, where difficult decisions are made and tradeoffs are based on an
enterprise view.
In its third year, the Information Technology Modernization Vision and Strategy planning
process continues to mature. The current release of the Information Technology Modernization
Vision and Strategy has been expanded to embody all technology services and products
delivered by the IRS. In addition, the Information Technology Modernization Vision and
Strategy Program Office was created. The mission of this Office is to enable the prioritization
and selection of MITS organization investments by employing mature processes that proactively
engage stakeholders to develop investment strategies that are aligned with the IRS
enterprise-wide strategic plans. This Office coordinates, formulates, and presents to senior
executives the key data points required to make informed investment decisions.
Enterprise Data Access and Data Strategy Implementation Programs
The Data Strategy is designed to provide standardized access to official IRS data sources;
eliminate redundant, inconsistent, and outdated data; and provide guidance to identify and use
data effectively and efficiently to gather and manage taxpayer account information. The
Enterprise Data Access and Data Strategy Implementation Programs are the major components
of the Data Strategy. These Programs are in development and projects related to them have been
initiated and, in some cases, completed. The MITS organization’s plans for the Data Strategy
address the goals of the Information Technology Modernization Vision and Strategy, and the
MITS organization is making progress in achieving those goals.
Tiered program management
To better manage the information technology investments, the Chief Information Officer
outlined a business commitment to implement an IRS enterprise-wide information technology
tiered program management structure. The Program Control and Process Management Division
has made significant progress directing, developing, and implementing tiered program
management activities. For example, it has developed and distributed standardized reporting
templates with documented processes and procedures for the executive steering committees. In
addition, the IRS has created a master list of information technology projects to track and assign
oversight. Each IRS organization has formed or is planning to form its own individual Program
Management Office to execute the new tiered program management processes and procedures
while providing oversight and management to assigned information technology projects.

                                                                                            Page 5
                                     Annual Assessment of the
                              Business Systems Modernization Program



The Modernization Program Is Being Refocused
The IRS has recognized that, in addition to the accomplishments achieved in the Modernization
Program, it faces significant challenges in meeting the requirements of the next phase of project
development and system integration. The IRS has stated that a strategy correction is needed to
meet changing business needs, have a more agile information technology environment, and
reduce risks with associated costs to build and maintain systems.
The immediate challenge recognized by the IRS is the future of the Customer Account Data
Engine, the acknowledged centerpiece throughout the life of the Modernization Program.
Currently, the Customer Account Data Engine operates concurrently with Individual Master File
processing. This requires that work must be done across the two environments, increasing the
complexity of the filing season and resulting in a greater risk for errors in processing taxpayer
account information. In addition, concerns about the increasing complexities and questions of
scalability with the existing system led to the development of the new strategy. Future planned
releases of the existing Customer Account Data Engine contain far more complex business
requirements, more interfaces with other systems, and have a far greater effect on employees and
visibility with taxpayers.
Further, the ability to obtain qualified technical resources and sufficient funding will challenge
the successful delivery of future Customer Account Data Engine releases. Since the IRS
initiated the Customer Account Data Engine project in 1999 and spent $335 million in
development costs, it has been able to process only approximately 30 percent of the individual
income tax returns filed. In the course of the project development, the Computer Sciences
Corporation (the PRIME contractor) played dual roles as program integrator and systems
developer. While the project did achieve substantial capabilities during this period, the IRS
changed the contractor role from integrator to developer. The change was due to budget
restrictions and performance. The IRS also considered how and to what extent to use contractor
resources for project development. The past experience in managing contractor performance and
the availability of resources for future development will drive the consideration for identifying
and applying qualified technical resources.
To address these challenges, the IRS established Program Integration Office solution teams to
consider using elements from the Individual Master File and the current Customer Account Data
Engine to significantly reengineer the IRS’ tax account management process. This reengineering
effort (if adopted) will end future new Customer Account Data Engine capabilities. A relational
database will be developed that will use some of the Customer Account Data Engine routines
and primarily rely on moving current Individual Master File processing from a weekly to a daily
processing cycle.
Although the IRS expects the reengineering effort to allow the Modernization Program to
provide the service desired for taxpayers and employees, the effort is currently in the design
stage. The state of the Modernization Program is static until plans are approved, systems are

                                                                                           Page 6
                                    Annual Assessment of the
                             Business Systems Modernization Program



designed and developed, and operations are implemented. The continued improvement to
managing individual taxpayer accounts will be curtailed until the use of the reengineered
database is available for downstream systems and applications. Further, the challenge in
modernizing the management of business taxpayer accounts has yet to be considered.

Further Improvements Can Be Made to Management of the
Modernization Program
Although the Modernization Program has continued to help improve IRS operations, project
development activities have not always effectively implemented planned processes or delivered
all planned system capabilities. The past year’s Modernization Program performance did not
continue the trend of improvement it demonstrated in the prior 3 years. The shortfall in
performance is presented in a Modernization Program analysis of project development cost and
schedule variance. The IRS has also experienced a turnover of executives, which has resulted in
changes to the Modernization Program direction. Further, a control process to manage the MITS
organization’s Highest Priority Initiatives has been discontinued without the implementation of a
compensating control to provide MITS organization executives the vehicle to identify and
resolve its most significant challenges.
Since 1995, the IRS has identified and reported the Modernization Program as a material
weakness. Because of the risks involved in the above conditions, and to maintain a high level of
attention, focus, and accountability, we believe the Modernization Program should remain as a
material weakness.
TIGTA reviews have identified weaknesses in program management processes throughout the
life of the Modernization Program. The processes with weaknesses include:
   •   Configuration management.
   •   Requirements development and management.
   •   Risk management.
   •   Contract negotiation and management.
   •   Enterprise Life Cycle compliance.
   •   Program management.
   •   Security controls.
While the MITS organization has improved its controls over these processes as the
Modernization Program has continued to mature, several weaknesses continue to exist. We have
identified continued problems in requirements development and management, program


                                                                                            Page 7
                                       Annual Assessment of the
                                Business Systems Modernization Program



management, contract management, and security controls as presented in the following examples
from TIGTA reports during the past year.
Requirements development and management
Long-term system requirements issues challenged the Customer Account Data Engine project.
As a followup to our July 2007 report,8 we reported in September 20089 that:
    •   The Customer Account Data Engine processing demands were quickly reaching the
        capacity of the current system, both in the storage and retrieval of data and the processing
        speed for daily transactions.
    •   The ability of the Customer Account Data Engine to access historical taxpayer account
        information currently residing on the Individual Master File had to be resolved to enable
        requirements for future developed Customer Account Data Engine releases.
    •   The expectation of significant increases in the Customer Account Data Engine taxpayer
        population, processing capacity, and data storage required consideration to meet future
        operational needs. The engineering staff performed the last formal study of Customer
        Account Data Engine processing capacity in Calendar Year 2004 and had not determined
        the long-term processing capacity requirements.
We summarized our work in September 2008 by relating, “The absence of a comprehensive
direction in designing and developing efficient computer processing will affect the Customer
Account Data Engine project’s ability to deliver intended capabilities. Unless sufficient time and
effort are provided to deliver the capabilities needed to support the long-term objectives and
goals, the Customer Account Data Engine will be unable to process tax returns for all individual
and business taxpayers as planned.”
By establishing a Program Integration Office, the IRS has recognized the need to reassess the
Customer Account Data Engine project capabilities and future requirements, and use this
experience to reengineer its plans for processing individual tax accounts. Some of the risks the
Program Integration Office considered as significant factors in the reengineering include
identifying and defining the major data classes and data stores for tax administration, identifying
business requirements, and incorporating yearly filing season updates and legislative changes.
Addressing these requirements early in the reengineering process should add to the potential
success of the Program Integration Office efforts.




8
  Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
9
  Customer Account Data Engine Project Management Practices Have Improved, but Continued Attention Is Needed
to Ensure Future Success (Reference Number 2008-20-151, dated September 11, 2008).
                                                                                                    Page 8
                                    Annual Assessment of the
                             Business Systems Modernization Program



Program management
While the IRS has made progress in implementing an IRS enterprise-wide information
technology program management structure, additional actions are needed to address current
weaknesses in providing effective oversight and management of all information technology
projects. The IRS has not fully:
   •   Documented policies and procedures for developing a complete portfolio of information
       technology projects.
   •   Completed the establishment of Program Management Offices for all IRS organizations.
   •   Implemented the project health assessment process.
   •   Provided consistent and continual monitoring and oversight of major information
       technology projects through the executive steering committees.
Contract management
Managing and monitoring contract development and performance has been a factor in the
success of Modernization Program project delivery. The IRS has made progress in negotiating
contract development to meet the needs of the project requirements, and is maturing in its ability
to identify and properly apply contractor resources. Although progress has been made,
continued improvement is needed in providing contracted resources to meet project requirements
and schedule demands.
An example of the need to improve the IRS’ contract development activity was identified in the
contracted work for the Account Management Services system. The contract for this project was
performance-based, finalized in a timely manner, and monitored. However, the contract was not
developed in a manner to appropriately control spending across releases. Because of the form of
the contract and the absence of key internal controls over funding, the Account Management
Services project management team experienced difficulty in managing project funding.
A total of approximately $17.4 million was spent across Account Management Services releases
(funds budgeted and allocated to 1 release, but used for another release). This $17.4 million
included almost $5.4 million of development costs and $12 million for infrastructure and project
management costs. The infrastructure and project management costs did benefit multiple
releases. However, allocation of these funds to multiple releases did not go through the required
MITS organization governance process for approval.
Security controls
Our reviews identified vulnerabilities in the security controls implemented with the development
of the Customer Account Data Engine, Account Management Services, and Modernized e-File
systems. The IRS has taken steps to resolve or is in the process of resolving these
vulnerabilities.

                                                                                           Page 9
                                       Annual Assessment of the
                                Business Systems Modernization Program



Modernization Program performance has been inconsistent
In our 2008 Annual Business Systems Modernization Assessment,10 we reported that
improvements in the management of the Modernization Program had contributed to the IRS’
increased success in implementing modernization projects and in meeting cost and schedule
commitments for most deliverables. Specifically, 19 (95 percent) of the 20 associated project
milestones scheduled for completion were completed within the 10 percent cost estimate
variance, and 18 (90 percent) of the 20 milestones were delivered within 10 percent of schedule
estimates.
However, since our 2008 assessment, the Modernization Program has not achieved the same
level of success. From May 2008 to May 2009, 5 (29 percent) of the 17 project milestones
scheduled for completion were significantly over cost estimates. These projects were between
30 percent and 375 percent over budget. In addition, 3 (18 percent) of 17 milestones were
significantly behind schedule. These projects were between 15 percent and 54 percent behind
schedule. Appendix VI presents the cost and schedule variance for Modernization Program
project releases delivered from May 2008 through May 2009. IRS Management did inform us
during our closing conference on August 5, 2009, that the variances were revised in July 2009 to
reflect changes in the baseline figures used to compute the variances.
Figure 1 presents an analysis of the Modernization Program management’s ability to deliver
project segments without significant variances. The analysis shows that the Program was
making steady progress in delivering project segments within cost and schedule estimates until
Calendar Year 2009.




10
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2008-20-129, dated
June 24, 2008).
                                                                                                  Page 10
                                    Annual Assessment of the
                             Business Systems Modernization Program



             Figure 1: Percentage of Modernization Project Segments
                      Delivered Without Significant Variances


                Modernization Program Cost and Schedule
                               Variances

                                    87%            95% 90%
        100%                              87%
                                                                   82%
         90%
                                                             71%
         80%
         70%              60%
         60%        50%
         50%
                                                                         Cost
         40%
                                                                         Schedule
         30%
         20%
         10%
          0%
                    2006           2007           2008       2009*
                                           Year

*Cost and Schedule variance through May 2009.
Source: IRS Modernization Program Performance Reports.




                                                                                Page 11
                                    Annual Assessment of the
                             Business Systems Modernization Program



Frequent changes in executive management may be affecting long-term program
performance
The Modernization
Program has experienced
significant and frequent
turnover of high level
IRS and Modernization
Program executives.
Since the Program began
in 1999, three
Commissioners, five
Chief Information
Officers, and, recently, a
Chief Technology
Officer have been
responsible for the
Program. Many of these
executives have made
major changes to the
Program’s direction and
strategies during their
tenure. These changes
have made it challenging
to achieve continuity to
result in long-term
success.




IRS designation of the Modernization Program as a material weakness should
continue
The Modernization Program should continue to be designated a material weakness because of
the risks involved with the redesign of the Customer Account Data Engine and associated
systems, the replacement of a key process used to manage MITS organization weaknesses and
challenges, and the continued system development concerns discussed previously.
Redesign of the Customer Account Data Engine
As presented previously, the Modernization Program is in a state of refocus. Limitations in
Customer Account Data Engine capabilities, including those reported by the TIGTA and the

                                                                                        Page 12
                                           Annual Assessment of the
                                    Business Systems Modernization Program



Government Accountability Office in previous years, have resulted in an effort to reengineer
processing of individual taxpayer accounts and the ability to use downstream systems to improve
customer service. With the pending changes and the yet to be determined implementation of a
reengineered process, the risks to the success of the Modernization Program are significant.
Replacement of the Highest Priority Initiatives process
From August 2005 through February 2009, IRS executives and managers used the Highest
Priority Initiatives process to identify and seek resolution for the most significant issues facing
the Modernization Program. This process was expanded to include initiatives affecting the
MITS and the Deputy Commissioner for Operations Support organizations, as well as corrective
actions associated with Government Accountability Office and TIGTA report findings. The IRS
also intended to use this process as a means to eventually downgrade the Modernization Program
material weakness.
The MITS organization established the Customer Relationship and Service Delivery organization
to support the overall technology performance of the IRS and MITS organization. Concurrently,
the Highest Priority Initiatives process was discontinued. The MITS organization informed us
that it is currently developing processes that will be used to replace the Highest Priority
Initiatives process and plans to submit the draft process to the Chief Technology Officer for
review. The MITS organization is currently focusing on process improvements throughout the
organization using industry best practices. The MITS Leadership team determined that this will
provide a more comprehensive, integrated, disciplined, and effective management approach for
process improvements than the previous Highest Priority Initiatives process.
Until the Highest Priority Initiatives process is replaced, the MITS organization adds risk in its
ability to manage its challenges, as well as controlling corrective actions to TIGTA and
Government Accountability Office report findings. The IRS’ corrective action responses to
TIGTA and Government Accountability Office recommendations were evaluated and submitted
as Highest Priority Initiatives candidates, when appropriate, and were selected at the discretion
of executive leadership. Appendix VIII presents TIGTA audit recommendations with current
IRS open corrective actions related to the Modernization Program material weakness, which
includes 3 of 15 open recommendations that were identified as candidates for resolution through
the Highest Priority Initiatives process.
A current plan is not in place to reduce the Modernization Program material weakness
The Federal Managers’ Financial Integrity Act of 198211 requires each Federal Government
agency to prepare for Congress and the President an annual report that identifies material
weaknesses and the agency’s corrective action plans and schedules. Since 1995, the IRS has
identified and reported systems modernization as a material weakness. The IRS developed a
material weakness action plan in response to the initial identification of the material weakness in

11
     31 U.S.C. Sections 1105, 1113, 3512 (2000).
                                                                                           Page 13
                                     Annual Assessment of the
                              Business Systems Modernization Program



Fiscal Year 1995. However, the Modernization Program material weakness action plan has not
been updated to include weaknesses subsequently reported since Fiscal Year 2003 by the
TIGTA, the Government Accountability Office, and IRS studies.
In 2008, IRS management reported that it was using the Highest Priority Initiatives process to
help eliminate the Modernization Program material weakness. With the changes planned for this
process and the pending implementation of a replacement, the MITS organization currently does
not have a vehicle to downgrade and eventually eliminate the Modernization Program material
weakness.
The IRS recognizes the need to incorporate necessary program management disciplines and has
plans to implement a process improvement strategy. This strategy will allow the Modernization
Program to continue to improve its management practices by incorporating industry best
practices. However, we believe the Modernization Program should continue as a material
weakness until the modernization material weakness action plan is updated and the improvement
strategy is accomplished.
Management’s Response: The Chief Technology Officer responded that the IRS was
pleased that the annual assessment recognized the MITS organization’s accomplishments in
providing quality customer service. The IRS also appreciated acknowledgement of the
continued development and deployment of modernized applications. In response to our
comments on the use of the Information Technology Modernization Vision and Strategy
planning process, the IRS related that it expanded the breadth of the business technology
included in this strategy and is establishing a pre-selection process for investment planning.




                                                                                           Page 14
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the IRS Business Systems
Modernization (Modernization) Program for Fiscal Year 2009, as required by the IRS
Restructuring and Reform Act of 1998.1 To accomplish this objective, we:
I.      Determined the current condition of the Modernization Program.
        A. Reviewed TIGTA audit reports issued from July 2008 through June 20092 and seven
           previous Modernization Program annual assessment reports (issued in Fiscal
           Years 2002, 2003, 2004, 2005, 2006, 2007 and 2008).3
        B. Reviewed IRS Oversight Board reports on the Modernization Program for Fiscal
           Year 2009.
        C. Reviewed Government Accountability Office reports relevant to Modernization
           Program activities for Fiscal Year 2009.
        D. Determined the TIGTA audit recommendations related to the Modernization Program
           material weakness with incomplete IRS corrective actions.
II.     Determined the status and condition of the Modernization Program reported by the IRS
        by reviewing documentation related to:
        A. The Chief Technology Officer’s material weaknesses, corrective actions, and statuses.
        B. The IRS Information Technology Modernization Vision and Strategy program.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IX for a detailed list of recent TIGTA reports and associated findings.
3
  Annual Assessment of the Internal Revenue Service’s Business Systems Modernization Program (Reference
Number 2002-20-189, dated September 27, 2002); Annual Assessment of the Business Systems Modernization
Program (Reference Number 2003-20-208, dated September 29, 2003); Annual Assessment of the Business Systems
Modernization Program (Reference Number 2004-20-107, dated June 3, 2004); Annual Assessment of the Business
Systems Modernization Program (Reference Number 2005-20-102, dated August 10, 2005); Annual Assessment of
the Business Systems Modernization Program (Reference Number 2006-20-102, dated June 30, 2006); Annual
Assessment of the Business Systems Modernization Program (Reference Number 2007-20-121, dated
August 24, 2007); and Annual Assessment of the Business Systems Modernization Program (Reference
Number 2008-20-129, dated June 24, 2008).
                                                                                                   Page 15
                             Annual Assessment of the
                      Business Systems Modernization Program



C. The August 2008 Business Systems Modernization Expenditure Plan and Business
   Systems Modernization Monthly Performance Measures Reports to analyze cost,
   schedule, and capability status and accomplishments. We did not validate the
   information provided by the IRS on the cost, scope, and business value of the
   Modernization Program. We analyzed these documents to:
   1. Determine overall variances between planned and actual costs and schedules, and
      obtain reasons for significant variances.
   2. Determine the extent planned capabilities were delivered as proposed in the
      August 2008 Business Systems Modernization Expenditure Plan.
D. The Highest Priority Initiatives status reports to determine the current efforts by the
   MITS organization to improve the Modernization Program.
   1. Analyzed Highest Priority Initiatives reported for the Modernization Program
      during Fiscal Year 2009.
   2. Assessed the adequacy of activity to address these initiatives.
E. The monthly IRS Modernization Has Delivered Real Business Value status reports
   from July 2008 to April 2009 to provide perspective on business value released into
   production.




                                                                                    Page 16
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Mark K. Carder, Senior Auditor
Bruce Polidori, Senior Auditor
Glen J. Rhoades, Senior Auditor
Louis V. Zullo, Senior Auditor




                                                                                       Page 17
                                 Annual Assessment of the
                          Business Systems Modernization Program



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Procurement OS:A:P
Director, Office of Program Evaluation and Risk Analysis RAS:O
Deputy Associate Chief Information Officer, Applications Development OS:CTO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CTO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CTO:ES:SI
Director, Stakeholder Management OS:CTO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CTO:AD
       Senior Operations Advisor, Wage and Investment Division SE:W:S
       Director, Program Oversight OS:CTO:SM:PO
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                 Page 18
                                     Annual Assessment of the
                              Business Systems Modernization Program



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 19
                                         Annual Assessment of the
                                  Business Systems Modernization Program



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and Strategy/               High-level direction setting. This is the only
 Enterprise Architecture            phase for enterprise planning projects.                    0
 Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance         Ongoing management of operational systems.              System
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 20
                                                          Annual Assessment of the
                                                   Business Systems Modernization Program



                                                                                                            Appendix V

                                       Modernization Program Funding

Figure 1 presents the cumulative funding received by the Business Systems Modernization
(Modernization) Program for contractor costs.
                                      Figure 1: Modernization Program Funding Timeline
                                                   (Dollars are cumulative)

                                  $3,200                                                                          $2,918
                                                                                                         $2,710
                                                                                                    $2,523
                                  $2,700                                                       $2,301
                                                                                      $2,134
                                                                                 $1,937
          Dollars (in millions)




                                  $2,200
                                                                            $1,734
                                  $1,700                               $1,346

                                  $1,200                        $968
                                                         $577
                                   $700           $449
                                            $35
                                   $200

                                  -$300
                                           1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010*

                                                                           Fiscal Year


* The Fiscal Year 2010 amount has not yet been appropriated. The amount is from the President’s Fiscal Year 2010
Budget Request.
Source: Business Systems Modernization Expenditure Plans.




                                                                                                                      Page 21
                                                             Annual Assessment of the
                                                      Business Systems Modernization Program



Figure 2 presents the funding received annually by the Modernization Program for program
management and development of business and infrastructure projects.
                                  Figure 2: Modernization Program Funding by Fiscal Year

                                 $450          $414
                                                              $391            $388
                                 $400                                $378

                                 $350
                                                                                                          $282
         Dollars (in millions)




                                 $300
                                                                                                                        $253
                                 $250                                                                            $223
                                                                                     $203 $197
                                 $200                                                              $167

                                 $150                  $128

                                 $100
                                         $35
                                 $50

                                  $0
                                        1999   2000   2001    2002   2003    2004    2005   2006   2007   2008   2009 2010*

                                                                            Fiscal Year

   * The Fiscal Year 2010 amount has not yet been appropriated. The amount is from the President’s Fiscal
   Year 2010 Budget Request and includes an estimated $45 million to fund associated IRS labor costs.
   Source: Business Systems Modernization Expenditure Plans.




                                                                                                                               Page 22
                                                         Annual Assessment of the
                                                  Business Systems Modernization Program



Figure 3 presents the cumulative funding received by the Modernization Program for
non-contractor costs of managing Modernization Program activities. The IRS stated that
approximately 25 percent of its non-contractor budget since Fiscal Year 2001 has been used to
support non-Modernization Program activities in the IRS.
          Figure 3: Non-contractor Modernization Program Funding Timeline
                                    by Fiscal Year
                              (Dollars are cumulative)


                                   $450
                                                                                                               $398.3
                                   $400                                                                  $353.3
           Dollars (in millions)




                                   $350                                                              $310.0
                                   $300                                                     $265.0
                                   $250                                                 $220.0
                                   $200                                            $170.2

                                   $150                                       $119.0
                                                                      $82.4
                                   $100
                                                        $27.6 $54.3
                                    $50    $6.2 $11.8
                                     $0
                                          1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010*

                                                                         Fiscal Year

* The Fiscal Year 2010 amount has not yet been appropriated. The amount is from the President’s Fiscal
Year 2010 Budget Request.
Source: Actual funding for Fiscal Years 1999 through 2009 and the budget estimate for Fiscal Year 2010 provided
by the IRS.




                                                                                                                    Page 23
                                                        Annual Assessment of the
                                                 Business Systems Modernization Program



Figure 4 presents the funding received annually by the Modernization Program for
non-contractor costs of managing Program activities.
      Figure 4: Non-contractor Modernization Program Costs by Fiscal Year

                                   $60
                                                                                  $51.2 $49.8
                                   $50                                                      $45.0 $45.0 $43.4 $45.0
           Dollars (in millions)




                                   $40                                    $36.6
                                                                      $28.1
                                   $30                        $26.7


                                   $20                $15.8

                                   $10    $6.2 $5.6


                                   $0
                                         1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010*

                                                                        Fiscal Year

   * The Fiscal Year 2010 amount has not yet been appropriated. The amount is from the President’s Fiscal
   Year 2010 Budget Request.
   Source: Actual funding for Fiscal Years 1999 through 2009 and the budget estimate for Fiscal Year 2010
   provided by the IRS.




                                                                                                                      Page 24
                                         Annual Assessment of the
                                  Business Systems Modernization Program



Figure 5 depicts the Modernization Program funding for non-contractor and external (contractor)
costs to manage Program activities.
     Figure 5: Internal and External Modernization Program Costs (in millions)


                                                                             Internal Costs
                                                                               398.3 (12%)




                             External Costs
                               2918 (88%)




Source: Actual internal costs for Fiscal Years 1999 through 2009 and the internal budget estimate for
Fiscal Year 2010 provided by the IRS. The external costs were derived from Business Systems Modernization
Expenditure Plans.




                                                                                                      Page 25
                                              Annual Assessment of the
                                       Business Systems Modernization Program



                                                                                                    Appendix VI

           Project Cost and Schedule Variance Analysis

This table presents the cost and schedule variance for Business Systems Modernization Program
project releases delivered since May 2008 and currently in progress. The statistics presented
reflect the cost and schedule estimates of these projects at the time of their initial design.

                         Current                            Cost            Cost         Schedule      Schedule
                          Finish                          Variance        Variance       Variance      Variance
         Release           Date           Milestone1      (Dollars)     (Percentage)      (Days)     (Percentage)
         Customer Account Data Engine
           4.1*        July 24, 2008           4         -$8,000,000        -36%            -10           -3%
           4.2*      January 15, 2009          4         $10,000,000         49%            -51          -20%
            5        March 17, 2009           2-3                  $0        0%             113           30%
            5         April 30, 2009          4a                   $0        0%              0            0%
            5.2      January 31, 2010         4b                   $0        0%              0            0%
         Account Management Services
                   November 13,
           1.2         2008                    5                   $0        0%              1            1%
            1.3     December 5, 2008          4b          $4,762,000        127%            16            8%
            1.3       May 31, 2009             5          $3,773,000        375%             0            0%
            2.1       June 24, 2008            3            -$86,000         -3%             0            0%
            2.1     December 9, 2008          4a            $760,000         30%             0            0%
            2.1       August 5, 2009          4b           -$423,000        -10%            36            15%
         Integrated Production Model
            1.1       June 30, 2008           4b                   $0        0%              0            0%
            4         June 30, 2008          3-4a                  $0        0%              0            0%
                      December 16,
            4             2008                4b                   $0        0%              1            1%
         Modernized e-File
            5.5        April 2, 2009          3-5        -$2,000,000        -14%             2            1%
            6          July 18, 2008           3          $2,800,000         40%            63            54%
            6.1       May 14, 2010           4a-5                  $0        0%              0            0%
        * The IRS provided information that in July 2009 it rebaselined the cost variance to offset $8 million
        Source: IRS Applications Development organization – Resources Management office.

1
    See Appendix IV for description of the various Enterprise Life Cycle milestones.
                                                                                                                 Page 26
                                        Annual Assessment of the
                                 Business Systems Modernization Program



                                                                                             Appendix VII

    Modernization Program Project Accomplishments

Table 1 presents the Modernization Program project accomplishments since our June 2008
annual assessment of the Business Systems Modernization Program.1
               Table 1: Modernization Program Project Accomplishments

PROJECT            DESCRIPTION                                    RECENT STATISTICS
Account            Account Management Services is a strategic     Account Management Services Release 1.3
Management         program to deliver improved customer           deployment was completed on February 20, 2009, and
Services2          support by leveraging legacy systems. The      provided increased functionality for customer service
                   Account Management Services system will        representatives. The release integrates two legacy
                   provide customer service representatives       systems, the Correspondence Imaging System and the
                   and tax examiners with the tools to access     Desktop Integration, into the Account Management
                   information quickly and accurately in          Services system and modernizes the technology
                   response to complex customer inquiries.        infrastructure for the image inventory components
                   Account Management Services system will        (formerly the Correspondence Imaging System).
                   deliver the technical and functional
                   infrastructure necessary to undertake the
                   modernization of the Integrated Data
                   Retrieval System, and modernize and retire
                   the Desktop Integration and the
                   Correspondence Imaging System.
Customer Account   The Customer Account Data Engine               Customer Account Data Engine Release 4.2 adds the
Data Engine        replaces the IRS Master File, the repository   capabilities to process certain revenue receipt
                   of all taxpayer information.                   transactions, extensions to file tax returns, and last
                                                                  name changes.
                                                                  Customer Account Data Engine Release 4.2 was
                                                                  successfully deployed on January 19, 2009. As of
                                                                  May 22, 2009, Release 4.2 posted almost 40 million
                                                                  individual tax returns and issued more than
                                                                  34.4 million refunds totaling in excess of
                                                                  $57.8 billion.
                                                                  The Customer Account Data Engine processes
                                                                  refunds on an average of 5 days faster than Individual
                                                                  Master File processing.



1
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2008-20-129, dated
June 24, 2008).
2
  See Appendix X for a glossary of terms.
                                                                                                         Page 27
                                        Annual Assessment of the
                                 Business Systems Modernization Program




PROJECT             DESCRIPTION                                 RECENT STATISTICS
Modernized e-File   The Modernized e-File provides the          Modernized e-File Release 5.5 was deployed on
                    electronic filing capability of more than   January 5, 2009, and delivered the redesigned
                    150 forms and schedules for large           Form 990. Release 5.5 exited Milestone 5
                    corporations and small businesses (U.S.     unconditionally on April 2, 2009. As of
                    Corporation Income Tax Return (Form         April 6, 2009, more than 3.2 million returns had been
                    1120) family), tax-exempt organizations     submitted and more than 2.6 million returns had been
                    (Return of Organization Exempt From         accepted.
                    Income Tax (Form 990) family),
                    partnerships (U.S. Return of Partnership    Returns submitted through the Modernized e-File
                    Income (Form 1065) family), and             have an average 8 percent processing error rate,
                    associated extension forms [e.g.,           compared to 24 percent for transcription-based paper
                    Application for Automatic Extension of      processing. The Modernized e-File offers
                    Time to File Certain Business Income Tax,   100 percent data capture that is available to IRS
                    Information, and Other Returns              customer service representatives online and in real
                    (Form 7004)].                               time.

Source: IRS Applications Development organization – Resources Management office.




                                                                                                      Page 28
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                              Appendix VIII

            Open Recommendations Related to
        Modernization Program Material Weaknesses

Table 1 lists TIGTA audit recommendations with current IRS open corrective actions related to
the Modernization Program material weakness.
                      Table 1: TIGTA Recommendations Related to the
                         Modernization Program Material Weakness

The Modernization, Information Technology and Security Services Organization Needs to Take Further Action
to Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 22, 2003)
                       To ensure the MITS organization has sufficient data to determine human capital demands,
                       the Chief Information Officer needs to support the Director, Management Services, to work
                       with offices throughout the MITS organization to identify the human capital demand. The
    2003-20-209
                       demand includes information to adequately plan the number, location, and assignment
     Finding 1,
                       schedule of human capital assets for existing information systems (from owners in the
Recommendation 1
                       Information Technology Services organization) and future MITS organization operations
                       (from owners in the Business Systems Modernization office).
                       Due Date: December 31, 2010.
The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses
Identified in Internal and External Studies (Reference Number 2006-20-003, dated November 21, 2005)
                       To ensure study weaknesses and previous recommendations concerning
    2006-20-003        change/configuration management are addressed, the Associate Chief Information Officer,
     Finding 1,        Enterprise Services, should create an overall plan that includes defined tasks, responsible
Recommendation 2 individuals, and estimated completion dates for implementing the standardized configuration
                       management toolset. Due Date: December 31, 2010.
The Modernization and Information Technology Services Organization’s Revised Post Implementation Review
Procedure Can Be Improved (Reference Number 2007-20-001, dated October 26, 2006)
                       The Chief Information Officer should direct the Program Performance Management office
                       to develop a schedule to perform Post Implementation Reviews for releases deployed and to
                       identify and obtain staffing resource commitments needed from the Program Performance
    2007-20-001        Management office, the Office of Program Evaluation and Risk Analysis, and appropriate
     Finding 1,        business unit representatives to effectively execute the Post Implementation Reviews. The
Recommendation 1 Chief Information Officer should also direct the Program Performance Management office
                       to eliminate the requirement to perform Post Reviews of milestone completion activities
                       after milestone exits, with the option of identifying any lessons learned for further project
                       progress through the Milestone Exit Reviews. Due Date: March 1, 2010.
                       The Chief Information Officer should direct the Program Performance Management office
    2007-20-001
                       to implement a procedure to control Post Implementation Review results that ensures
     Finding 1,
                       appropriate executives and decision makers have access to these documents.
Recommendation 2
                       Due Date: March 1, 2010.


                                                                                                           Page 29
                                         Annual Assessment of the
                                  Business Systems Modernization Program




                     The Chief Information Officer should direct the Program Performance Management office
                     to identify skills and abilities desired for Post Implementation Review team members and
   2007-20-001
                     ensure team assignments consider these qualifications. The Program Performance
    Finding 1,
                     Management office should develop a training guide for Post Implementation Review team
Recommendation 3
                     members to provide them with an understanding of the purpose, objectives, and processes of
                     the Post Implementation Review. Due Date: March 1, 2010.
The Modernization and Information Technology Services Organization Can Improve Its Budget Formulation,
Execution, and Review Processes (Reference Number 2007-20-064, dated May 9, 2007)
                     The Chief Information Officer should implement a process to develop the entire MITS
                     organization budget in line with the Information Technology Modernization Vision and
   2007-20-064       Strategy’s rolling 5-year prioritized plan. The budget process should consider
    Finding 1,       organizational goals for each of the MITS organization components and include costs for
Recommendation 1 operations and maintenance of existing computer systems, telecommunication systems, and
                     other programs such as end-user support and help desk activities.
                     Due Date: October 1, 2009.
The Information Technology Enterprise Governance Structure Needs Further Process Improvements to Ensure
Adequate Oversight (Reference Number 2008-20-134, dated July 31, 2008)
                     The Chief Information Officer should work with other IRS executives to develop a complete
   2008-20-134       and accurate master Information Technology project listing with formally approved and
    Finding 1,       documented policies and procedures to continually update the portfolio. These procedures
Recommendation 1 should include a standard set of Information Technology terms that have been approved and
                     communicated to all IRS organizations. Due Date: August 1, 2009.
Customer Account Data Engine Project Management Practices Have Improved, but Continued Attention Is
Needed to Ensure Future Success (Reference Number 2008-20-151, dated September 11, 2008)
   2008-20-151       The Chief Information Officer should develop an updated estimate of the processing and
    Finding 1,       storage requirements, including the related costs, to support the long-term objectives and
Recommendation 2 goals of Customer Account Data Engine operations. Due Date: July 1, 2009.
The Modernization Vision and Strategy Program Is Achieving Desired Results, but Risks Remain (Reference
Number 2009-20-008, dated October 31, 2008)
   2009-20-008       The Chief Information Officer should include guidelines for performance measurement and
    Finding 2,       reporting in the updated Modernization Vision and Strategy Plan.
Recommendation 1 Due Date: December 1, 2009.
Implementing the Data Strategy Will Make System and Application Development More Efficient and Effective
(Reference Number 2009-20-022, dated February 19, 2009)
                     The Chief Technology Officer should quantify and communicate the benefits that will be
   2009-20-022
                     realized from implementing the Data Strategy, to be in a better position to promote the Data
    Finding 2,
                     Strategy and justify and receive funding through budget requests and MITS organization
Recommendation 1
                     governance directives. Due Date: July 15, 2009.
   2009-20-022       The Chief Technology Officer should develop a method to determine the priority for IRS
    Finding 3,       systems and data assets to begin following the Data Strategy and when systems and data
Recommendation 1 assets can be retired due to the Data Strategy. Due Date: September 1, 2009.




                                                                                                        Page 30
                                           Annual Assessment of the
                                    Business Systems Modernization Program




 Initial Efforts to Develop a New Web-based Portal Environment Were Not Successful (Reference
 Number 2009-20-079, dated May 19, 2009)
                        The Chief Technology Officer should work with the Commissioner, Wage and Investment
                        Division, to develop a process to ensure that new projects seeking approval and funding
     2009-20-079        during the information technology governance process, and which are not part of the
      Finding 1,        Modernization Vision and Strategy process, are properly identified and their portal needs are
 Recommendation 1 considered. The new process should be similar to existing procedures to ensure a uniform
                        analysis is conducted for projects that are not part of the Modernization Vision and Strategy
                        process. Due Date: October 1, 2009.
 Modernization Program Uncertainties Are Affecting the Account Management Services Project Development
 (Reference Number 2009-20-071, dated June 9, 2009)
                        The Chief Technology Officer should direct project management teams and contracting
                        officers to propose modernization task orders with the ability to readily account for system
     2009-20-071
                        development activity funding on a release basis and, for major modernization development
      Finding 2,
                        projects, on a milestone basis. Designating contract activities for specific release and
 Recommendation 1
                        milestone capital development activities will provide clear funding and reporting traceability
                        and more accessible assessments of contract funding progress. Due Date: June 1, 2010.
                        The Chief Technology Officer should reinforce existing governance procedures to
     2009-20-071        Modernization and Information Technology Services organization executives and managers
      Finding 2,        about release-specific project funding, the need to gain approval of funding reallocations,
 Recommendation 2 and requirements to communicate these changes to stakeholders.
                        Due Date: February 1, 2010.
                        The Chief Technology Officer should provide training and desk procedures on the proper
                        use of release-specific (and, where applicable, milestone-specific) project funding. The
                        procedures should provide detailed steps for preparing, reviewing, and approving
                        requisitions. The procedures should include, at a minimum, the following controls:
     2009-20-071
                        1) when requisitions are initiated, requisition preparers, financial plan managers, and
      Finding 2,
                        approvers must verify that the narrative describing the work to be performed in the
 Recommendation 3
                        requisition is clear and identifies the project release supported and compare the internal
                        order code to the narrative to ensure the correct release is being charged for the expense and
                        2) before requisitions are executed, the project manager must verify that the actual work
                        requisitioned supports the release to be charged for the cost. Due Date: October 1, 2009.
Source: TIGTA audit reports issued from September 2003 through June 2009 and the Joint Audit Management
Enterprise System.




                                                                                                             Page 31
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                            Appendix IX

        Recent Treasury Inspector General for
          Tax Administration Reports on the
  Internal Revenue Service’s Modernization Program

Table 1 lists TIGTA reports related to the IRS Modernization Program issued from July 2008
through June 2009 and the associated findings, recommendations, and IRS corrective actions.
         Table 1: Recent TIGTA Reports, Findings, and Corrective Actions

   Report Title,        Finding and Recommendation                           Corrective Action
 Reference Number,
      and Date

  Correspondence       Finding 1: The Correspondence         The Applications Development organization,
   Imaging System      Imaging System continues to           partnering with the Enterprise Operations
  Performance Has      experience random periods of          organization, provided a document showing the
    Improved, but      instability and performance issues.   successful completion of each Incident Analysis
Additional Measures                                          Team recommendation, action, and results to the
Are Needed to Ensure   Recommendation: The Chief             Customer Service Executive Steering Committee
   That the System     Information Officer should ensure     and to the TIGTA.
Performs As Expected   that the corrective actions taken     Status: Closed August 5, 2008.
                       subsequent to our audit work to
    2008-20-130        address the open recommendations
                       identified by the Incident Analysis
    July 9, 2008       Team have been completed and
                       were effective in improving
                       Correspondence Imaging System
                       performance.

                       Recommendation: The Chief             Following the large-path methodology, the IRS will
                       Information Officer should ensure     implement Accounts Management Services
                       that adequate actions are taken to    Release 1.3 drop 2, which is a complete
                       reduce and prevent the same           re-architecture of the Correspondence Imaging
                       instability and performance issues    System. This will ensure that adequate actions are
                       from occurring after the              taken to reduce and prevent instability and
                       Correspondence Imaging System is      performance issues once the Correspondence
                       merged with the Accounts              Imaging System has merged the with Accounts
                       Management Services system.           Management Services system.
                                                             Status: Closed March 27, 2009.




                                                                                                      Page 32
                                       Annual Assessment of the
                                Business Systems Modernization Program




   Report Title,        Finding and Recommendation                            Corrective Action
 Reference Number,
      and Date

                       Finding 2: Information in the          The Chief Information Officer agreed with this
                       Correspondence Imaging System          recommendation and will conduct presentations to
                       Business Case was incomplete and       the Executive Steering Committees as part of their
                       inaccurate.                            enterprise governance process to reinforce the need
                                                              to secure Department of the Treasury approval
                       Recommendation: The Chief              when a decision to merge investments has been
                       Information Officer should ensure      made. Also, IRS project officials will prepare the
                       IRS project officials timely request   new Exhibit 300 required to effectively merge the
                       Department of the Treasury             Correspondence Imaging System and the Account
                       approval to merge and close            Management Services system investments and will
                       investments and restate expected       restate the expected costs and benefits.
                       costs and benefits.                    Status: Closed January 29, 2009.

  The Information      Finding: A complete                    Building on work already completed, the IRS
    Technology         tiered-program management              master Information Technology project list will
     Enterprise        structure has not been fully           incorporate projects and operational applications in
Governance Structure   implemented to ensure effective        the IRS portfolio. It will use the governance
   Needs Further       oversight and control of all           process to develop, approve, and communicate
      Process          information technology projects.       formal policies and procedures to continually
  Improvements to                                             update the portfolio as well as a standard set of
  Ensure Adequate      Recommendation: The Chief              information technology terms.
     Oversight         Information Officer should work        Status: Open. Due Date is August 1, 2009.
                       with other IRS executives to
    2008-20-134        develop a complete and accurate
                       master Information Technology
   July 31, 2008       project list with formally approved
                       and documented policies and
                       procedures to continually update
                       the portfolio. These procedures
                       should include a standard set of
                       Information Technology terms that
                       have been approved and
                       communicated to all IRS
                       organizations.

                       Recommendation: The Chief              The Enterprise Governance Directive was approved
                       Information Officer should ensure      by the Chief Information Officer with concurrence
                       the proposed governance directive      by the Deputy Commissioner for Services and
                       is approved and communicated           Enforcement and the Acting Deputy Commissioner
                       throughout all levels of the IRS       for Operations Support, effective
                       and work with IRS executives to        November 25, 2008. The MITS organization
                       require all IRS organizations to       Program Management Offices and the Business
                       adhere to the Program Control and      Systems Planning offices participated in the
                       Process Management Division            development of the Directive in order to foster an

                                                                                                         Page 33
                                      Annual Assessment of the
                               Business Systems Modernization Program




  Report Title,        Finding and Recommendation                           Corrective Action
Reference Number,
     and Date
                      governance processes.                 enterprise-wide adherence. Key IRS stakeholders
                                                            were briefed on the final content, and it will be
                                                            published on the Governance web site and in the
                                                            Process Asset Library.
                                                            Status: Closed December 1, 2008.

                      Recommendation: The Chief             The IRS will issue a directive and guidance and
                      Information Officer should            conduct an enterprise-wide campaign of education
                      establish formal policies and         and sustained support for the control organizations
                      procedures to ensure the health       in order to ensure consistency of the health
                      assessment process is consistently    assessment process.
                      applied and followed across all       Status: Closed April 28, 2009.
                      IRS organizations.

                      Recommendation: The Chief             The IRS will develop a directive and guidance to
                      Information Officer should ensure     ensure all assigned major Information Technology
                      policies and procedures are           projects are reviewed monthly by the appropriate
                      developed or revised to require       Information Technology control organizations and
                      control organizations to review all   presented to the appropriate governance board’s
                      assigned major information            attention when established thresholds are exceeded.
                      technology projects monthly and       Status: Closed April 28, 2009.
                      present projects to the appropriate
                      governance board’s attention when
                      established thresholds are
                      exceeded.

 Customer Account     Finding 1: Long-term issues           The Customer Account Data Engine Project Office
Data Engine Project   continue to challenge the Customer    will partner with key stakeholders to develop a
    Management        Account Data Engine project.          decision paper to assess how to proceed with the
   Practices Have                                           Historical Data Conversion as it relates to Customer
   Improved, but      Recommendation: The Chief             Account Data Engine’s continued development.
Continued Attention   Information Officer should ensure     The project office will develop a plan and schedule
Is Needed to Ensure   that a Historical Data Conversion     for Historical Data Conversion implementations
   Future Success     solution is in place to enable the    based on the decision paper.
                      Customer Account Data Engine to       Status: Closed April 9, 2009.
   2008-20-151        process transactions related to
                      issues such as balance-due
                      conditions.




                                                                                                       Page 34
                                     Annual Assessment of the
                              Business Systems Modernization Program




  Report Title,       Finding and Recommendation                           Corrective Action
Reference Number,
     and Date

September 11, 2008   Recommendation: The Chief             The Enterprise Services organization will update
                     Information Officer should            Customer Account Data Engine end-state
                     develop an updated estimate of the    processing and storage design estimates as
                     processing and storage                measured in Millions of Instructions Per Second
                     requirements, including the related   and Terabytes, respectively. Estimates will include
                     costs, to support the long-term       direct costs associated with processing and storage
                     objectives and goals of Customer      requirements. Indirect costs such as software
                     Account Data Engine operations.       license fees, professional services, labor charges,
                                                           and maintenance fees will not be included in cost
                                                           estimates.
                                                           Status: Open. Due Date is July 1, 2009.

                     Finding 2: Processing of              The Customer Account Data Engine team reviewed
                     economic stimulus payments put        the current governance procedures for assessing
                     the Customer Account Data Engine      impacts and risks in the event of unplanned,
                     Release 4 project schedule at risk.   mandated initiatives. No gaps were identified;
                                                           however, a Project Review Checklist was developed
                     Recommendation: The Chief             in line with these procedures to ensure that release
                     Information Officer should use a      managers are consistent in their approach and
                     standardized process to determine     documentation.
                     the effect on the Customer            Status: Closed November 25, 2008.
                     Account Data Engine project’s
                     scope, cost, and delivery schedules
                     when unplanned initiatives are
                     mandated for implementation.
                     These effects should be measured
                     to the extent possible and reported
                     to the IRS Commissioner and other
                     stakeholders as a means for
                     communicating the consequences
                     to previously planned Customer
                     Account Data Engine capabilities.




                                                                                                     Page 35
                                         Annual Assessment of the
                                  Business Systems Modernization Program




   Report Title,         Finding and Recommendation                             Corrective Action
 Reference Number,
      and Date

   The Enterprise       Finding 1: Funding for contractor       The Enterprise System Management projects have
Systems Management      support was not always provided         been discussed and tasks and deliverables have been
 Program Is Making      in a timely manner.                     re-scoped to align with Fiscal Year 2009 budget
 Progress to Improve                                            projections and availability of resources.
Service Delivery and    Recommendation: The Chief               Status: Closed October 23, 2008.
Monitoring, but Risks   Information Officer should ensure
      Remain            that the Enterprise System
                        Management projects receive
    2008-20-161         timely and sufficient funding, or
                        revise the projects’ tasks, to ensure
September 12, 2008
                        efficient use of contractor support
                        funds and continuity of funding.

                        Finding 2: The Enterprise System        The Enterprise System Management projects are
                        Management projects did not             now under the governance of the Infrastructure
                        always have adequate executive          Executive Steering Committee to ensure risks and
                        steering committee oversight to         issues are timely resolved.
                        ensure that issues and risks were       Status: Closed September 23, 2008.
                        resolved in a timely manner.

                        Recommendation: The Chief
                        Information Officer should place
                        Enterprise System Management
                        projects under the governance of
                        the Infrastructure Executive
                        Steering Committee to ensure that
                        risks and issues are resolved in a
                        timely manner.

                        Finding 3: Controls over licenses       The IRS has acquired and implemented the IBM
                        for software on servers and             Tivoli License Compliance Manager product to
                        software tool purchases should be       track and manage all software licenses used
                        improved.                               agency-wide on servers in order to better evaluate
                                                                software usage and related costs.
                        Recommendation: The Chief               Status: Closed January 29, 2009.
                        Information Officer should acquire
                        software tools to track licenses of
                        software used agency-wide on
                        servers to track and better evaluate
                        software usage and related costs.




                                                                                                           Page 36
                                        Annual Assessment of the
                                 Business Systems Modernization Program




   Report Title,         Finding and Recommendation                             Corrective Action
 Reference Number,
      and Date

                        Recommendation: The Chief              The Internal Revenue Manual revision adding an
                        Information Officer should ensure      Enterprise System Management organization
                        that all tools meeting Enterprise      review for information technology acquisitions has
                        System Management organization         been submitted for review and incorporation into
                        software tool criteria and requested   the next published revision of Internal Revenue
                        by all IRS organizations are           Manual 2.21.1. This revision ensures that
                        submitted to the Enterprise System     requisitions for information technology enterprise
                        Management organization for            tools meeting the Enterprise System Management
                        approval through the IRS Web           organization criteria incorporated an Enterprise
                        Request Tracking System.               System Management organization review in its
                                                               Web Request Tracking System approval path.
                                                               Status: Closed October 23, 2008.

The Internal Revenue    Finding: Internal Revenue Service      The Co-Chairs of the Customer Service Executive
Service Deployed Two    organizations and oversight            Steering Committee do not approve milestone exits
of Its Most Important   groups did not consider known          unilaterally; instead, they are two of several voting
 Modernized Systems     security vulnerabilities to be         members of the Customer Service Executive
With Known Security     significant enough to either resolve   Steering Committee. The IRS will continue to
    Vulnerabilities     the vulnerabilities or deploy the      follow the governance process documented in the
                        systems with conditional               Customer Service Executive Steering Committee
    2008-20-163         restrictions.                          charter and consider all security vulnerabilities to
                                                               ensure best practices are in place for the successful
September 24, 2008                                             delivery of project security and functionality.
                        Recommendation: The Director,
                        Business Modernization Office,         Status: Closed October 2, 2008.
                        and the Director, Customer
                        Service, serving as the Co-Chairs
                        of the Customer Service Executive
                        Steering Committee, should
                        consider all security
                        vulnerabilities–including those
                        associated with general support
                        systems–that affect the overall
                        security of the Customer Account
                        Data Engine and the Account
                        Management Services before
                        approving milestone exits. Equal
                        emphasis should be placed on
                        security and functionality.




                                                                                                           Page 37
                                    Annual Assessment of the
                             Business Systems Modernization Program




  Report Title,      Finding and Recommendation                             Corrective Action
Reference Number,
     and Date

                    Recommendation: The Customer           The IRS will continue to follow the existing
                    Account Data Engine and the            Enterprise Life Cycle processes for identifying,
                    Account Management Services            confirming, and resolving security vulnerabilities at
                    Project Managers should provide        the requirements, design, development, and testing
                    more emphasis to both preventing       life cycle stages, with an increased emphasis on
                    and resolving security                 both preventing and resolving security
                    vulnerabilities identified during      vulnerabilities identified during the Enterprise Life
                    Enterprise Life Cycle processes.       Cycle processes. The IRS will also strengthen
                                                           processes for capturing and documenting all
                                                           Executive Steering Committee meeting minutes.
                                                           Status: Closed October 23, 2008.

                    Recommendation: The Wage and           The IRS will continue to operate in accordance with
                    Investment Division Directors of       Internal Revenue Manual 10.8.1.42, which states
                    the Customer Account Data Engine       that the Designated Approving Authority verifies
                    and the Account Management             that security assessments are conducted to
                    Services, in their roles as system     determine that security controls are effectively
                    owners, should approve interim         operating, correctly implemented, and meeting the
                    authorities to operate when            security requirements of the system. Based on the
                    significant security control           results of these risk assessments, the Designated
                    weaknesses exist in system             Approving Authority, along with the approval of
                    environments. These interim            the appropriate governance board (Executive
                    authorities to operate should          Steering Committee), accepts risks and may grant
                    contain specific terms and             full, interim, or deny authority to operate. If and
                    conditions in accordance with IRS      when significant control weaknesses are found to
                    policy, including corrective actions   exist in system environments, an interim authority
                    to be taken by the information         to operate will be issued with the appropriate
                    system owners and a required time      timelines based on judgment of the level of risk.
                    period for completion of the           Status: Closed October 2, 2008.
                    corrective actions, before
                    authorities to operate are granted.

                    Recommendation: The Associate          The IRS has been recommending interim authorities
                    Chief Information Officer,             to operate when significant security vulnerabilities
                    Cybersecurity, should recommend        exist in system environments as a standard part of
                    interim authorities to operate when    the IRS certification and accreditation process that
                    significant security vulnerabilities   was vetted with the National Institute of Standards
                    exist in system environments.          and Technology and rated “satisfactory” for two
                                                           consecutive annual Federal Information Security
                                                           Management Act reporting cycles.
                                                           Status: Closed October 2, 2008.




                                                                                                       Page 38
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,         Finding and Recommendation                            Corrective Action
Reference Number,
     and Date

                       Recommendation: The Associate          The certification and accreditation process has been
                       Chief Information Officer,             modified and includes documented concurrence by
                       Cybersecurity, should continue         the Security Engineering Office and/or the Office of
                       efforts to improve the accuracy and    Privacy when reporting that vulnerabilities
                       completeness of risk information in    identified during milestone reviews have been
                       the security assessment reports by     corrected in the security assessment report. The
                       listing the general support system     IRS will update standard operating procedures to
                       controls that are not yet              incorporate these process changes and continue to
                       implemented in the system              strengthen the process by including the relevant
                       environment and documenting            general support system plan of action and
                       concurrence by the Security            milestones as an attachment to each application
                       Engineering Office and the Office      security assessment report.
                       of Privacy when reporting that         Status: Closed December 22, 2008.
                       vulnerabilities identified during
                       milestone reviews have been            Office of Audit Comment: While the IRS agreed
                       corrected.                             with all of our recommendations, the related
                                                              corrective actions for the first four
                                                              recommendations are focused on continuing to
                                                              follow existing processes or strengthening current
                                                              processes. As stated in the report, we believe the
                                                              existing security vulnerabilities were not caused by
                                                              process deficiencies. Instead, IRS offices did not
                                                              carry out their responsibilities for ensuring that
                                                              security weaknesses were corrected before
                                                              deployment.

 Customer Account      Finding: Customer Account Data         No corrective actions were required because the
   Data Engine         Engine Release 3 began processing      report did not make any recommendations.
     Release 3         tax returns in August 2007, and
    Successfully       successfully incorporated new
Processes Individual   requirements to accept and process
Tax Return and Tax     tax return and tax account
Account Information    information. For the first time, the
                       Customer Account Data Engine
    2009-20-001        processed two math error notices
                       and an Earned Income Tax Credit
 October 24, 2008      informational notice. In addition,
                       the Customer Account Data Engine
                       accurately processed almost all
                       economic stimulus payments.

                       Recommendation: No
                       recommendations were made.


                                                                                                         Page 39
                                         Annual Assessment of the
                                  Business Systems Modernization Program




   Report Title,         Finding and Recommendation                              Corrective Action
 Reference Number,
      and Date

 The Modernization      Finding 1: The process for               The IRS will implement procedures to compare
 Vision and Strategy    developing total cost estimates can      actual project operations and maintenance costs to
Program Is Achieving    be improved.                             initial estimates and revise the estimation process
 Desired Results, but                                            when necessary.
    Risks Remain        Recommendation: The Chief                Status: Closed March 27, 2009.
                        Information Officer should ensure
    2009-20-008         the reliability of the cost estimation
                        process by implementing
  October 31, 2008
                        procedures to compare actual
                        project operations and maintenance
                        costs to initial estimates and
                        revising the estimation process, if
                        necessary.

                        Finding 2: Modernization Vision          The IRS will update the Modernization Vision and
                        and Strategy program performance         Strategy Plan to reference performance measures
                        measurement standards need               and reporting. This update will be included in the
                        further development.                     Calendar Year 2009 annual publication.
                                                                 Status: Open. Due Date is December 1, 2009.
                        Recommendation: The Chief
                        Information Officer should include
                        guidelines for performance
                        measurement and reporting in the
                        updated Modernization Vision and
                        Strategy Plan.

The Internal Revenue    Finding: Security vulnerabilities        The IRS will continue to follow the governance
Service Deployed the    were not given sufficient attention      process documented in the Submission Processing
 Modernized E-File      during the development and               Executive Steering Committee charter, which
 System With Known      accreditation of the Modernized          includes review of all security vulnerabilities,
      Security           e-File system.                          including those associated with general support
   Vulnerabilities                                               systems, before milestone exits. Consistent with
                        Recommendation: The                      governance procedures, these milestone exit review
    2009-20-026         Submission Processing Executive          discussions will be documented in the Submission
                        Steering Committee should                Processing Executive Steering Committee meeting
 December 30, 2008      consider all security                    minutes.
                        vulnerabilities, including those         Status: Closed January 13, 2009
                        associated with general support
                        systems, that affect the overall
                        security of the Modernized e-File
                        system and the Modernized Tax
                        Return Database before approving
                        milestone exits.


                                                                                                            Page 40
                                    Annual Assessment of the
                             Business Systems Modernization Program




  Report Title,      Finding and Recommendation                           Corrective Action
Reference Number,
     and Date

                    Recommendation: The                  The IRS will continue to follow the existing
                    Commissioner, Wage and               Enterprise Life Cycle processes for identifying,
                    Investment Division, and the Chief   confirming, and resolving security vulnerabilities at
                    Information Officer should provide   the requirements, design, developmental, and
                    more emphasis to both preventing     testing life cycle stages, with an increased emphasis
                    and resolving security               in both preventing and resolving security
                    vulnerabilities identified during    vulnerabilities identified during the Enterprise Life
                    Enterprise Life Cycle processes to   Cycle. The IRS will also strengthen the process for
                    the Modernized e-File system         capturing and documenting all executive steering
                    project office.                      committee meeting minutes.
                                                         Status: Closed January 13, 2009

                    Recommendation: The Director,        The IRS will continue to operate in accordance with
                    Electronic Tax Administration and    Internal Revenue Manual 10.8.1.42, which states
                    Refundable Credits, Wage and         that the Designated Approving Authority verifies
                    Investment Division, as the          that security assessments are conducted to
                    Modernized e-File system owner,      determine that security controls are effectively
                    should approve interim authorities   operating, correctly implemented, and meeting the
                    to operate when significant          security requirements of the system. Based on the
                    security control weaknesses exist    results of these risk assessments, the Designated
                    in system environments. These        Approving Authority, along with the approval of
                    interim authorities to operate       the appropriate governance board (Executive
                    should contain specific terms and    Steering Committee), accepts risks and may grant
                    conditions in accordance with IRS    full, interim, or deny authority to operate. If and
                    policy that must be met, including   when significant control weaknesses are found to
                    corrective actions to be taken by    exist in the system environments, the IRS will issue
                    the information system owners and    an interim authority to operate with the appropriate
                    a required time period for           timelines based on judgment of the level of risk.
                    completion of the corrective         Status: Closed January 13, 2009
                    actions, before authorities to
                    operate are granted.                 Office of Audit Comment: Although the IRS
                                                         agreed with all of our recommendations, its related
                                                         corrective actions are focused on continuing to
                                                         follow existing processes or strengthening current
                                                         processes. As stated in the report, we believe that
                                                         the existing security vulnerabilities were not caused
                                                         by process deficiencies. Instead, IRS offices did
                                                         not carry out their responsibilities for ensuring that
                                                         security weaknesses were corrected before
                                                         deployment.




                                                                                                      Page 41
                                      Annual Assessment of the
                               Business Systems Modernization Program




  Report Title,       Finding and Recommendation                              Corrective Action
Reference Number,
     and Date

Implementing The     Finding 1: Sustaining the Data           While the IRS agrees with the spirit and intent of
Data Strategy Will   Strategy effort will allow for more      the recommendation, it cannot agree to fund any
Make System and      efficient and effective system           one project without considering each year’s annual
   Application       development and operations.              budget. The actions taken to prioritize all
Development More                                              information technology demand with IRS senior
  Efficient and      Recommendation: The Chief                leadership limits the Chief Technology Officer’s
    Effective        Technology Officer should work           ability to direct resources to specific development
                     with IRS senior executives to            projects. Priorities for the limited information
   2009-20-022       consider the priority of the Data        technology resources are driven through a
                     Strategy effort in relation to the       service-wide priority process. Notwithstanding, it
February 19, 2009                                             is the IRS’ intent over the long term to move the
                     MITS organization’s budget and
                     provide the necessary funding so         IRS to a data-centric organization.
                     that the Data Strategy can be            Status: Rejected.
                     successfully implemented as an
                     integral component of the                Office of Audit Comment: The Data Strategy is
                     Information Technology                   cited by the IRS as one of the “four pillars of
                     Modernization Vision and                 Modernization.” We believe the IRS should place a
                     Strategy. The funding method             high enough priority on the Data Strategy that the
                     needs to support the development,        project is considered for a relevant portion of
                     implementation, and maintenance          available funding. Without providing adequate
                     of the Data Strategy as it facilitates   resources to secure this portion of the foundation,
                     and supports IRS data access.            the Modernization effort is weakened. Insufficient
                                                              resources and commitment could lead the Data
                                                              Strategy to the same result experienced by previous
                                                              efforts – partially completed projects that did not
                                                              provide the intended goal.

                     Finding 2: Quantifying the               The Data Strategy Implementation Program Office
                     benefits of the Data Strategy will       will quantify its benefits, including those derived
                     strengthen the commitment for            from eliminating redundant storage, using the
                     implementation.                          Modernization Vision and Strategy costing model
                                                              developed by the Enterprise Data Management
                     Recommendation: The Chief                Office. This process will only address new
                     Technology Officer should                Modernization Vision and Strategy projects, as
                     quantify and communicate the             existing and non-Modernization Vision and
                     benefits that will be realized from      Strategy projects are not subject to the costing
                     implementing the Data Strategy, to       model. For Modernization Vision and Strategy
                     be in a better position to promote       projects that already exist, the Data Strategy
                     the Data Strategy and justify and        Implementation Program Office will quantify and
                     receive funding through budget           extract the benefits from their budget.
                     requests and MITS organization           Status: Open. Due Date is July 15, 2009.
                     governance directives.



                                                                                                         Page 42
                                       Annual Assessment of the
                                Business Systems Modernization Program




  Report Title,        Finding and Recommendation                             Corrective Action
Reference Number,
     and Date

                      Finding 3: A method to include          The Data Strategy Implementation Division within
                      systems and data assets in the          the Applications Development organization will
                      Data Strategy should be                 analyze IRS systems and data assets to develop a
                      developed.                              plan for determining a prioritization methodology
                                                              for these systems and assets to be incorporated into
                      Recommendation: The Chief               the Data Strategy.
                      Technology Officer should               Status: Open. Due Date is September 1, 2009.
                      develop a method to determine the
                      priority for IRS systems and data
                      assets to begin following the Data
                      Strategy and when systems and
                      data assets can be retired due to the
                      Data Strategy.

 Initial Efforts to   Finding: Procedures are not in          The Chief Technology Officer organization and the
  Develop A New       place to continuously identify new      Wage and Investment Division will partner together
Web-based Portal      projects needing portal support.        to improve coordination intended to ensure that all
Environment Were                                              major new projects needing portal services will
  Not Successful      Recommendation: The Chief               receive analysis that is similar to existing
                      Technology Officer should work          procedures. To effect this change, the Enterprise
   2009-20-079        with the Commissioner, Wage and         Services organization-led Modernization Vision and
                      Investment Division, to develop a       Strategy team and the Wage and Investment
  May 19, 2009        process to ensure that new projects     Division Electronic Tax Administration function
                      seeking approval and funding            will collaborate in a timely manner to identify
                      during the information technology       priority projects and decision data. This will be
                      governance process, and which are       accomplished by tailoring existing portfolio
                      not part of the Modernization           identification and management procedures to
                      Vision and Strategy process, are        optimize the impact from a time and resource
                      properly identified and their portal    perspective and to ensure the capture of key
                      needs are considered. The new           elements necessary for informed decision making.
                      process should be similar to            The steps selected from the current procedures will
                      existing procedures to ensure that a    meet the specific needs of the project and an
                      uniform analysis is conducted for       explanation of why specific actions are tailored will
                      projects that are not part of the       be recorded for each of these items. The end result
                      Modernization Vision and Strategy       will be a process that identifies investment
                      process.                                opportunities which are channeled through an
                                                              engineering and estimation process to ensure that
                                                              any portal needs are identified, considered, and
                                                              properly addressed.
                                                              Status: Open. Due Date is October 1, 2009.




                                                                                                         Page 43
                                        Annual Assessment of the
                                 Business Systems Modernization Program




   Report Title,         Finding and Recommendation                           Corrective Action
 Reference Number,
      and Date

   Modernization        Finding 1: Work has been              The Account Management Services project request
       Program          suspended on future Account           to realign funds to complete Releases 1.3 and 2.1
  Uncertainties Are     Management Services project           followed the governance process. The request
Affecting the Account   releases.                             received approval from the Customer Service
Management Services                                           Executive Steering Committee on
Project Development     Recommendation: The Chief             December 5, 2008, and from the MITS Enterprise
                        Technology Officer should ensure      Governance Board on January 23, 2009.
    2009-20-071         that the Account Management           Notification was made to the Department of the
                        Services project development          Treasury and the Office of Management and
    June 9, 2009                                              Budget.
                        activities follow the appropriate
                        governance process to redirect        Status: Closed February 18, 2009.
                        remaining Account Management
                        Services funding to complete
                        Releases 1.3 and 2.1.

                        Finding 2: Adequate project           The Associate Chief Information Officer for
                        funding controls were not             Management’s Financial Management Services
                        implemented.                          Business Systems Modernization team will meet
                                                              with 1) the Procurement organization to discuss
                        Recommendation: The Chief             how the recommendation can be incorporated with
                        Technology Officer should direct      Procurement guidelines and 2) Business Systems
                        project management teams and          Modernization project managers to assess current
                        contracting officers to propose       practices and determine what changes are necessary
                        modernization task orders with the    to ensure implementation of the TIGTA’s
                        ability to readily account for        recommendations, amended if necessary by
                        system development activity           Procurement’s input. Based on the results of these
                        funding on a release basis and, for   discussions, the Financial Management Services
                        major modernization development       Business Systems Modernization team will issue
                        projects, on a milestone basis.       budgetary guidelines. The IRS does not believe
                        Designating contract activities for   there is a governance impact to Recommendation 2.
                        specific release and milestone        Status: Open. Due Date is June 1, 2010.
                        capital development activities will
                        provide clear funding and reporting
                        traceability and more accessible
                        assessments of contract funding
                        progress.




                                                                                                       Page 44
                                         Annual Assessment of the
                                  Business Systems Modernization Program




    Report Title,          Finding and Recommendation                             Corrective Action
  Reference Number,
       and Date

                         Recommendation: The Chief               The Associate Chief Information Officer for
                         Technology Officer should               Management’s Financial Management Services
                         reinforce existing governance           Business Systems Modernization team will review
                         procedures to MITS organization         current procedures for release-specific project
                         executives and managers about           funding, parameters around funding reallocations
                         release-specific project funding,       and external stakeholder notifications to ensure they
                         the need to gain approval of            reflect the latest guidance, and then reissue existing
                         funding reallocations, and              procedures to executives and managers. The team
                         requirements to communicate these       will partner with the Enterprise Services
                         changes to stakeholders.                organization’s Program Governance Office to
                                                                 reinforce existing governance procedures and to
                                                                 ensure that this topic is included as an agenda item
                                                                 for discussion at appropriate Executive Steering
                                                                 Committee meetings.
                                                                 Status: Open. Due Date is February 1, 2010.

                         Recommendation: The Chief               The suggested controls have been discussed with
                         Technology Officer should provide       Applications Development organization requisition
                         training and desk procedures on         preparers, reviewers, and approvers and are now in
                         the proper use of release-specific      place. Formal desk procedures, including the
                         (and, where applicable, milestone-      appropriate use of release-specific and
                         specific) project funding. The          milestone-specific project funding, are under
                         procedures should provide detailed      development.
                         steps for preparing, reviewing, and     Status: Open. Due Date is October 1, 2009.
                         approving requisitions. The
                         procedures should include, at a
                         minimum, the following controls:
                         1) when requisitions are initiated,
                         requisition preparers, financial plan
                         managers, and approvers must
                         verify that the narrative describing
                         the work to be performed in the
                         requisition is clear and identifies
                         the project release supported, and
                         compare the internal order code to
                         the narrative to ensure the correct
                         release is being charged for the
                         expense and 2) before requisitions
                         are executed, the project manager
                         must verify that the actual work
                         requisitioned supports the release
                         to be charged for the cost.

Source: TIGTA audit reports issued from July 2008 through June 2009.

                                                                                                             Page 45
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                                        Appendix X

                              Glossary of Terms

            Term                                              Definition

Account Management Services A project that will modernize the capability to collect, view,
                            retrieve, and manage taxpayer information.
Best Practice                   A technique or methodology that, through experience and
                                research, has proven to reliably lead to a desired result.
Byte                            A byte is commonly used as a unit of storage measurement in
                                computers, regardless of the type of data being stored. It is
                                also one of the basic integral data types in many programming
                                languages. Generally, a byte is a contiguous sequence of eight
                                binary digits.
                                                              Popular Use and
                                                             Standard Meaning

                                                    Name         Symbol    Quantity

                                                  kilobyte         KB       210 (103)

                                                  megabyte         MB       220 (106)

                                                  gigabyte         GB       230 (109)

                                                  terabyte         TB      240 (1012)


Customer Account Data           The foundation for managing taxpayer accounts in the IRS
Engine                          modernization plan. It will consist of databases and related
                                applications that will replace the existing IRS Master File
                                processing systems and will include applications for daily
                                posting, settlement, maintenance, refund processing, and issue
                                detection for taxpayer tax account and return data.




                                                                                             Page 46
                                      Annual Assessment of the
                               Business Systems Modernization Program




             Term                                            Definition

Data Strategy Implementation      An initiative for implementing the data strategies that define
Program                           the Enterprise Data Architecture, define the current and future
                                  data requirements, reduce and/or eliminate data duplication
                                  within the enterprise, provide solutions for information access
                                  and sharing, support interoperability among information
                                  systems, and support IRS business goals.
Enterprise Computing Center       Supports tax processing and information management through
                                  a data processing and telecommunications infrastructure.
Enterprise Data Access            An Extensible Markup Language Relational Database and
Program                           Integrated Production Model. The Extensible Markup
                                  Language Relational Database became operational in Fiscal
                                  Year 2006 and provides the IRS Tax Exempt and Government
                                  Entities Division with electronically filed business returns in a
                                  relational database that captures and associates data using
                                  common attributes. The Integrated Production Model will
                                  provide a consolidated database of tax return and account data
                                  in a single repository for compliance data used in the case
                                  selection processes.
Enterprise Life Cycle             A structured business systems development method that
                                  requires the preparation of specific work products during
                                  different phases of the development process.
Executive Steering Committee      Oversees investments, including validating major investment
                                  business requirements and ensuring that enabling technologies
                                  are defined, developed, and implemented.
Filing Season                     The period from January through mid-April when most
                                  individual income tax returns are filed.
Highest Priority Initiatives      A process IRS executives and managers used to identify and
Process                           seek resolution for the most significant issues facing the
                                  Modernization Program. IRS executives and senior managers
                                  were appointed to oversee the plans to resolve each of the
                                  Highest Priority Initiatives, and progress was reported
                                  monthly. New initiatives were identified every 6 months.




                                                                                           Page 47
                                     Annual Assessment of the
                              Business Systems Modernization Program




              Term                                         Definition

Information Technology           A 5-year plan that drives investment decisions, addresses the
Modernization Vision and         priorities around modernizing front-line tax administration and
Strategy                         supporting technical capabilities, and leverages existing
                                 systems (where possible) and new development (where
                                 necessary) to optimize capacity, manage program costs, and
                                 deliver business value on a more incremental and frequent
                                 basis.
Infrastructure                   The fundamental structure of a system or organization. The
                                 basic, fundamental architecture of any system (electronic,
                                 mechanical, social, political, etc.) determines how it functions
                                 and how flexible it is to meet future requirements.
Integrated Data Retrieval        The IRS computer system capable of retrieving or updating
System                           stored information; it works in conjunction with a taxpayer’s
                                 account records.
Integrated Production Model      A consolidated source of core taxpayer data (e.g., tax account,
                                 tax return, and third-party data) and business application data
                                 to be used by a wide range of business applications to support
                                 case identification, selection, prioritization, and delivery.
Master File                      The IRS database that stores various types of taxpayer account
                                 information. This database includes individual, business, and
                                 employee plans and exempt organizations data.
Material Weakness                Office of Management and Budget Circular A-123,
                                 Management’s Responsibility for Internal Control, dated
                                 December 2004, defines a material weakness as any condition
                                 an agency head determines to be significant enough to be
                                 reported outside the agency.
Milestone                        The “go/no-go” decision point in a project and is sometimes
                                 associated with funding approval to proceed.
Modernized e-File                The modernized, web-based platform for filing approximately
                                 330 IRS forms electronically, beginning with the
                                 U.S. Corporation Income Tax Return (Form 1120),
                                 U.S. Income Tax Return for an S Corporation (Form 1120S),
                                 and Return of Organization Exempt From Income Tax
                                 (Form 990).


                                                                                          Page 48
                                  Annual Assessment of the
                           Business Systems Modernization Program




             Term                                       Definition

PRIME Contractor              The Computer Sciences Corporation, which heads an alliance
                              of leading technology companies brought together to assist
                              with the IRS’ efforts to modernize its computer systems and
                              related information technology.
Relational Database           A database that captures data using common attributes found
                              in the data set.
Release                       A specific edition of software.
Task Order                    An order for services planned against an established contract.
Work Breakdown Structure      A deliverable-oriented grouping of project elements that
                              organizes and defines the total scope of the project.




                                                                                      Page 49
                 Annual Assessment of the
          Business Systems Modernization Program



                                              Appendix XI

Management’s Response to the Draft Report




                                                   Page 50
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 51
